IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-18
ARTHUR GREGORY LANGE,
PETITIONER
v.
STATE OF CALIFORNIA
_______________
ON WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL,
FIRST APPELLATE DISTRICT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________
Pursuant to Rules 28.4 and 28.7 of this Court, the Acting
Solicitor General, on behalf of the United States, respectfully
moves for leave to participate in oral argument in this case as
amicus curiae supporting affirmance and that the United States be
allowed ten minutes of argument time.

The Court-appointed amicus

has agreed to cede ten minutes of argument time to the United
States and consents to this motion.
This case presents the question of an officer’s ability under
the Fourth Amendment to the federal Constitution to pursue a
suspect into a residence, when the officer has probable cause to

2
arrest the suspect for a misdemeanor offense and the suspect is on
notice that the officer is trying to stop him.

The California

Court of Appeal held that an officer’s pursuit of a misdemeanor
suspect into a residence in those circumstances is reasonable under
the Fourth Amendment.

Pet. App. 18a.

Respondent has declined to

defend the judgment, and the Court has appointed an amicus curiae
to brief and argue in support of the judgment below.

The United

States

supporting

is

filing

today

a

brief

as

amicus

curiae

affirmance.
The

United

States

disposition of this case.

has

a

substantial

interest

in

the

The question of an officer’s authority

to make a warrantless entry into a residence in pursuit of a
suspect

whom

the

officer

has

probable

cause

to

believe

has

committed a misdemeanor may arise in the context of federal law
enforcement in national parks or on other federal land.

It also

may arise in federal prosecutions based on arrests by state or
local police.

The United States has previously presented oral

argument as amicus curiae in cases concerning the interpretation
and application of the Fourth Amendment.

See, e.g., Kansas v.

Glover, 140 S. Ct. 1183 (2020); Birchfield v. North Dakota, 136 S.
Ct. 2160 (2016); Kentucky v. King, 563 U.S. 452 (2011).

We

therefore believe that participation by the United States in oral
argument in this case would be of material assistance to the Court.

3
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
JANUARY 2021

